                     OFFICE OF THE SPECIAL INSPECTOR GENERAL

                         FOR THE TROUBLED ASSET RELIEF PROGRAM
                                    1801 L STREET, NW, 6 TH FLOOR
                                      WASHINGTON, D.C. 20220




                                       November 17, 2009



MEMORANDUM FOR:                Herbert M. Allison Jr., Assistant Secretary for Financial Stability,
                               Department of Treasury

                              Kenneth Feinberg, Special Master for TARP Executive
                              Compensation

FROM:                         Neil M. Barofsky, Spec'                 eneral for the Troubled
                              Asset Relief Program

SUBJECT:                       Engagement Memo - Review of Office of the Special Master
                               Decisions on Executive Compensation



As part of our continuing oversight of the Troubled Asset Relief Program, we are initiating an
audit of the Special Master's decisions on executive compensation at firms receiving exceptional
assistance from the U.S. government. As part of the June 15,2009, interim final compensation
regulations, the Special Master will review the proposed compensation structures for the senior
executive officers and the 20 next most highly-compensated, as well as the proposed
compensation structure for the next 75 most highly-compensated employees.

Our specific objectives will be to assess (1) the criteria used by the Office of the Special Master
to evaluate executive compensation and, (2) whether the criteria were consistently applied to all
firms receiving exceptional assistance.

We plan to start work on this engagement immediately. This work will be performed under
engagement code 017. We expect to perform our field work at the Office of Financial Stability
and the Office of the Special Master. A member of my staff will contact you shortly to arrange
an entrance conference. At that time, we will discuss our scope, methodology, and timeframes in
more detail. In the meantime, please contact Mr. Michael Kennedy, SIGTARP Associate
Director for Audit, at (202) 622-9257.

cc: Duane Morse, Chief Risk and Compliance Officer, OFS
